CAPITAL CASE
EXECUTION SCHEDULED FOR SEPTEMBER 22, 2020 AT 6:00 P.M. E.D.T.
No. __________
_________________
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WILLIAM EMMETT LECROY, JR.,
Applicant,
v.
UNITED STATES OF AMERICA,
Respondent.
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
___________________________________________

APPLICATION FOR STAY OF EXECUTION

JOHN R. MARTIN
Martin Brothers, P.C.
Georgia Bar No. 473325
1099 St. Louis Pl.
Atlanta, GA 30306
(404) 433-7446
jack@martinbroslaw.com

STEPHEN FERRELL
Federal Defender Services
of Eastern Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, TN 37929
(865) 637-7979
Stephen_Ferrell@fd.org

SANDRA MICHAELS
Georgia Bar No. 504014
965 Virginia Avenue, N.E.
Atlanta, GA 30306
(404) 312-5781
SLMichaelsLaw@gmail.com

Counsel of Record for Applicant LeCroy

APPLICATION FOR STAY OF EXECUTION
To the Honorable Clarence Thomas, Associate Justice of the United States
and Circuit Justice for the Eleventh Circuit:
Applicant, William Emmett LeCroy, Jr., respectfully applies to this Court for
an order staying his execution which is set for September 22, 2020, pending this
Court’s consideration of his Petition for certiorari review of the decision of the
United States Court of Appeals for the Eleventh Circuit denying him relief.
INTRODUCTION
Mr. LeCroy seeks a stay pending review of the United States Court of
Appeals for the Eleventh Circuit decision affirming the United States District Court
for the Northern District of Georgia’s Order that denied Petitioner’s Motion to Reset
or Modify Execution Date in Order to Implement Court’s Order Appointing Counsel,
William Emmett LeCroy, Jr., v. United States of America, No. 20-13353, 2020 WL
5542483 (11th Cir. Sept. 16, 2020). In that motion, Petitioner LeCroy asked the
district court to reset or modify his execution date so that his lead counsel could
fulfill his appointed duties and attend his execution. As explained in that motion
and in the Petition for Certiorari, longtime lead counsel will be unable to attend
LeCroy’s execution due to his chronic illness and his vulnerability to the COVID-19
virus. Although the district court found counsel’s arguments sincere and compelling,
it found it did not have the power to move the date unless Mr. LeCroy could meet
the standards for a Stay of Execution. Because that finding is erroneous, this Court
must stay Mr. LeCroy’s execution so that the district court can decide the issue.

1

Because there is a reasonable probability that this Court will grant
LeCroy certiorari review of his claim that the district court possessed authority to
reset his execution date, and there is a fair prospect that he will thereafter prevail
on that claim, a stay should issue.
JUDGMENT FOR WHICH REVIEW IS SOUGHT
The opinion of the United States Court of Appeals for the Eleventh Circuit
affirming the Order by the United States District Court for the Northern District of
Georgia denying Petitioner’s Motion to Reset or Modify Execution Date in Order to
Implement Court’s Order Appointing Counsel, William Emmett LeCroy, Jr., v.
United States of America, No. 20-13353, 2020 WL 5542483 (11th Cir. Sept. 16,
2020), is attached to the Petition for Certiorari as Appendix A.
JURISDICTION
Your Honor and this Court have jurisdiction to grant a stay of execution
pending consideration of Mr. LeCroy’s Petition for Writ of Certiorari: “In any case in
which the final judgment or decree of any court is subject to review by the Supreme
Court on writ of certiorari, the execution and enforcement of such judgment or
decree may be stayed for a reasonable time to enable the party aggrieved to obtain a
writ of certiorari from the Supreme Court.” 28 U.S.C. § 2101(f). Furthermore, the
All Writs Act gives your Honor and this Court the power to issue a stay to maintain
jurisdiction of the underlying matter. “The Supreme Court and all courts
established by Act of Congress may issue all writs necessary or appropriate in aid of

2

their respective jurisdictions and agreeable to the usages and principles of law.” 28
U.S.C. § 1651(a).
STANDARD FOR GRANTING A STAY
Mr. LeCroy meets the standard for granting a stay because there is a
reasonable likelihood this Court will grant review and, absent a stay, he will be
executed and denied the benefit of this Court’s judgment.
Four factors guide the issuance of a stay: (1) whether the Petitioner makes a
strong showing of the likelihood of success on the merits; (2) whether the Petitioner
will be irreparably injured absent a stay; (3) whether the issuance of a stay will
injure the opposing party; and, (4) whether a stay is in the public interest. Nken v.
Holder, 556 U.S. 418, 434 (2009). When the Government is the opposing party,
assessing the harm to the opposing party and weighing the public interest merge.
Nken, 556 U.S. at 435. Where a stay is sought pending a Petition for Certiorari, the
petitioner need only show a “reasonable probability” that this Court will grant
certiorari and a “fair prospect” that the decision below will be reversed. Maryland v.
King, 567 U.S. 1301 (2012) (Chief Justice Roberts, as Circuit Justice). In Barefoot v.
Estelle, 463 U.S. 880 (1983) (superseded on other grounds by 28 U.S.C. § 2253(c)),
this Court held that a stay may be granted when there are “a reasonable probability
that four members of the Court would consider the underlying issue sufficiently
meritorious for the grant of certiorari …; a significant possibility of reversal of the
lower court’s decision; and ... a likelihood that irreparable harm will result if that
decision is not stayed.” Barefoot, 463 U.S. at 895 (quoting White v. Florida, 458 U.S.

3

1301, 1302 (1982)). Further, a stay should be granted when necessary to “give nonfrivolous claims of constitutional error the careful attention that they deserve” and
when a court cannot “resolve the merits [of a claim] before the scheduled date of
execution, … to permit due consideration of the merits.” Barefoot, 463 U.S. at 88889. These factors weigh in favor of a stay in Mr. LeCroy’s case.
REASONS FOR GRANTING A STAY
I.

There is a reasonable probability that this Court will grant certiorari
and a fair prospect that Mr. LeCroy will succeed on the merits.
As outlined in Mr. LeCroy’s Petition for Writ of Certiorari, there are good

reasons for this Court to accept certiorari and review this case. It is also reasonably
likely that Mr. LeCroy will prevail on the merits of his claim. For these reasons, a
stay should issue from this Court.
First, in his Petition for Writ of Certiorari, Mr. LeCroy has shown that the
district court possessed the discretion to reset the execution date and that such a
reset would not constitute a stay of execution. This is because district courts retain
discretion to modify execution dates in the same manner they modify other orders
such as the date on which a convicted defendant will self-surrender to the Bureau of
Prisons or modify a scheduling order. Because the district court ordered the
execution and because it has the jurisdiction to see that it is carried out according to
the law, it retained the jurisdiction to reset the date if it found that circumstances
required it.
Second, even if this Court were to consider Mr. LeCroy’s motion as a request
for an injunction, the district court has the discretion to consider it under the All

4

Writs Act, 18 U.S.C.§ 1651(a). The All Writs Act gives the court jurisdiction to
“issue all writs necessary or appropriate in aid of their respective jurisdictions and
agreeable to the usages and principles of law.” Id. Thus, where the ends of justice so
require, the court had the power to reset the execution date so that its earlier order
appointing lead counsel under 28 U.S.C. § 3599 could be given full effect. In this
case where the extraordinary circumstances of a world-wide pandemic and lead
counsel’s medical vulnerability lead to his inability to fulfill his appointed duties,
the All Writs Act gives district courts discretion to fashion an appropriate remedy.
Here, that remedy was to simply reset the date of the execution so that counsel
could meet their obligations.
These points are more fully briefed in Mr. LeCroy’s Petition for Writ of
Certiorari that is being filed concurrently with this Application. In that Petition,
Mr. LeCroy sets out his legal arguments more fully, and those arguments mandate
that this Court find that he is likely to succeed on the merits of his underlying
claims. For that reason, this Court must issue a Stay of Execution in order to fully
consider his claims.
II.

Without a stay of execution, Mr. LeCroy will be irreparably injured
pending this Court’s decision on his petition.
Absent a stay, Mr. LeCroy plainly faces irreparable injury, his death.

Further, Mr. LeCroy will be prejudiced by the denial of a stay because he would not
receive the benefit of a decision on the meritorious issues raised in his petition for
certiorari.

5

III.

The public interest lies in favor of granting a stay and issuance of a stay
will not substantially prejudice the State.
While the public may have an interest in seeing judgments carried out, it also

has an interest that its citizens not suffer punishment in violation of their due
process rights. “[I]t is always in the public interest to prevent violation of a party’s
constitutional rights.” G & V Lounge, Inc. v. Michigan Liquor Control Comm’n, 23
F.3d 1071, 1079 (6th Cir. 1994) (citing Gannett Co., Inc. v. DePasquale, 443 U.S.
368, 383 (1979)); see also In re Morris, 328 F.3d 739, 741 (5th Cir. 2003) (the public
interest is served when an applicant for a stay makes a showing of a likelihood of
success on the merits).
Likewise, the United States suffers no substantial harm when, as in this
case, an execution is delayed in order to determine whether the very sentence that
it seeks to carry out on September 22, 2020, can be constitutionally imposed when it
frustrates the order appointing Mr. LeCroy’s legal counsel and interfering with Mr.
LeCroy’s meaningful access to the courts under the Fourteenth Amendment. In re
Holladay, 331 F.3d 1169, 1177 (11th Cir. 2003); In re Morris, supra. And “if the
plaintiff shows a substantial likelihood that the challenged law is unconstitutional,
no substantial harm to others can be said to inhere in its enjoinment.” Deja Vu of
Nashville, Inc. v. Metro. Gov’t of Nashville & Davidson Cty., Tennessee, 274 F.3d
377, 400 (6th Cir. 2001).
Mr. LeCroy seeks a stay of execution for a prompt and accurate
determination as to whether the district court may reset or modify an execution
date that was set by the executive branch that would frustrate the district court’s

6

purposes when it issued an order appointing counsel for all proceedings including
clemency and possible execution. Because of appointed counsel’s health issues, the
date chosen interferes with Mr. LeCroy’s access to the courts and counsel. The
Fourteenth Amendment guarantees prisoners meaningful access to the courts. See
Bounds v. Smith, 430 U.S. 817, 822 (1977). An inmate’s opportunity to confer with
counsel is a particularly important constitutional right which the courts will not
permit to be unnecessarily abridged. Dreher v. Sielaff, 636 F.2d 1141, 1146 (7th Cir.
1980). It is through counsel’s presence that the inmate has access to the courts until
his life is over. The district court’s order of appointment ensures the inmate’s access
to counsel. These legal principles are rendered meaningless when the Government
insists, after nearly 20 years, that Mr. LeCroy be executed now, in the middle of a
deadly global pandemic. Resetting the date will ensure that Mr. LeCroy’s rights are
protected.
Without a stay, Mr. LeCroy’s will not have access to the courts and to
meaningful legal counsel during the most critical stages of his case as the United
States government prepares and implements his execution. Finally, it must be
remembered that a stay serves the interests of the United States government, and
the public’s interest, in ensuring that the penalty of death is imposed in compliance
with the Fourteenth Amendment.
CONCLUSION
For the foregoing reasons, the Court should grant this Application and stay
Mr. LeCroy’s execution pending disposition of his Petition for Writ of Certiorari.

7

This 22nd day of September, 2020.
Respectfully submitted,
BY:

/s/ John R. Martin
John R. Martin
1099 St. Louis Pl
Atlanta, Georgia 30306
Ph: (404) 433-7446
jack@martinbroslaw.com
/s/Sandra Michaels
Sandra Michaels
965 Virginia Avenue NE
Atlanta, Georgia 30306
Ph: (404) 312-5781
SLMichaelsLaw@gmail.com
/s/Stephen Ferrell
Stephen Ferrell
Federal Defender Services of Eastern
Tennessee, Inc.
800 South Gay Street, Suite 2400
Knoxville, TN 37929
Ph: (865) 637-7979
Stephen_Ferrell@fd.org
Counsel for Applicant LeCroy

8

